<html>
<title> - EXAMINING NASA'S DEVELOPMENT ON THE SPACE LAUNCH SYSTEM AND ORION CREW CAPSULE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                      EXAMINING NASA'S DEVELOPMENT
                       ON THE SPACE LAUNCH SYSTEM
                         AND ORION CREW CAPSULE
=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                     WEDNESDAY, SEPTEMBER 12, 2012

                               __________

                           Serial No. 112-102

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
76-236                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e483948ba4879197908c818894ca878b89ca">[email&#160;protected]</a>  


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

               HON. STEVEN M. PALAZZO, Mississippi, Chair
F. JAMES SENSENBRENNER JR.,          JERRY F. COSTELLO, Illinois
    Wisconsin                        TERRI A. SEWELL, Alabama
LAMAR S. SMITH, Texas                DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         FREDERICA S. WILSON, Florida
FRANK D. LUCAS, Oklahoma             HANSEN CLARKE, Michigan
W. TODD AKIN, Missouri                   
MICHAEL T. McCAUL, Texas                 
SANDY ADAMS, Florida                 EDDIE BERNICE JOHNSON, Texas
E. SCOTT RIGELL, Virginia
MO BROOKS, Alabama
RALPH M. HALL, Texas


                            C O N T E N T S

                     Wednesday, September 12, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven M. Palazzo, Chair, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     9
    Written Statement............................................    10

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    10
    Written Statement............................................    11

Statement by Representative Hansen H. Clarke, Acting Ranking 
  Minority Member, Subcommittee on Space and Aeronautics, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    11
    Written Statement............................................    12

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    52
    Written Statement............................................    52

                               Witnesses:

Mr. Dan Dumbacher, Deputy Associate Administrator for Exploration 
  Systems Development, NASA
    Oral Statement...............................................    13
    Written Statement............................................    16

Mr. Cleon Lacefield, Vice President and Orion Program Manager, 
  Lockheed Martin Corporation
    Oral Statement...............................................    21
    Written Statement............................................    23

Mr. Jim Chilton, Exploration Vice President, The Boeing Company
    Oral Statement...............................................    29
    Written Statement............................................    31

Dr. Matt Mountain, Director, Space Telescope Science Institute
    Oral Statement...............................................    39
    Written Statement............................................    41

             Appendix I: Answers to Post-Hearing Questions

Mr. Dan Dumbacher, Deputy Associate Administrator for Exploration 
  Systems Development, NASA......................................    62

Mr. Cleon Lacefield, Vice President and Orion Program Manager, 
  Lockheed Martin Corporation....................................    68

Mr. Jim Chilton, Exploration Vice President, The Boeing Company..    72

Dr. Matt Mountain, Director, Space Telescope Science Institute...    78


                      EXAMINING NASA'S DEVELOPMENT
                       ON THE SPACE LAUNCH SYSTEM
                         AND ORION CREW CAPSULE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 12, 2012

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] T6236.001

[GRAPHIC] [TIFF OMITTED] T6236.002

[GRAPHIC] [TIFF OMITTED] T6236.003

[GRAPHIC] [TIFF OMITTED] T6236.004

[GRAPHIC] [TIFF OMITTED] T6236.005

[GRAPHIC] [TIFF OMITTED] T6236.006

[GRAPHIC] [TIFF OMITTED] T6236.007

    Chairman Palazzo. The Subcommittee on Space and Aeronautics 
will come to order.
    Good morning, everyone. Before we get started, there has 
been an incident in the Middle East last night where four 
Americans lost their lives in attacks on U.S. soil, U.S. 
embassies. If we could just take a moment of silence and pray 
for not only those that were murdered but also for their 
families.
    Welcome to today's hearing entitled ``Examining NASA's 
Development of the Space Launch System and Orion Crew 
Capsule.'' In front of you are packets containing the written 
testimony, biographies and Truth in Testimony disclosures for 
today's witness panel. I recognize myself for five minutes for 
an opening statement.
    I would like to welcome everyone to our hearing, and I 
especially want to thank our witnesses for joining us today. I 
know many people put in a lot of effort preparing for these 
hearings, and we appreciate you taking time from your busy 
schedules to appear before the Subcommittee. I also want to 
assure you that we greatly value your expertise and wisdom, and 
that your testimony will benefit this Committee in the weeks 
and months ahead as we endeavor to ensure uninterrupted 
development of these important new programs.
    The purpose of today's hearing is to discuss NASA's and 
industry's progress, next steps, and challenges developing our 
Nation's next-generation heavy-lift launcher and crew capsule. 
For the next several decades, the Space Launch System and Orion 
multipurpose crew vehicle will give our country the capability 
to launch exciting new human spaceflight exploration missions 
and robotic science missions.
    No other country has the technical expertise or industrial 
base to produce anything similar to SLS or Orion, making it all 
the more compelling to ensure that these programs continue 
without interruption.
    It is also important to realize other significant benefits 
that flow from the SLS and Orion programs. First, by building a 
heavy-lift vehicle, we will enable bold new science missions, 
and I look forward to Dr. Mountain's testimony about the scale 
of potential flagship missions that might be conceived for 
launching 10 or 15 years from now. I am optimistic that once 
our government's fiscal health has been restored, NASA will 
have the resources to once again consider robotic flagship 
missions that will maintain the momentum we currently enjoy 
with missions such as MSL.
    Second, looking at the health and vitality of our aerospace 
industrial base, SLS and Orion will continue to challenge our 
best and brightest engineers to design and develop advanced 
propulsion, avionics and manufacturing capabilities that will 
maintain America's preeminence in space. While no other country 
currently has the capability to match what we can do with SLS 
and Orion, a number of emerging space powers may, in time, be 
tempted to challenge our leadership in space. That includes 
space-based technologies that are fundamental to our economy, 
our quality of life and our national security. By scaling back 
investments in aerospace R&D, we risk putting future 
generations of Americans at risk.
    Finally, I worry that without SLS and Orion, NASA's and our 
country's ability to do the hard stuff--cutting-edge space 
exploration--would be seriously impaired. NASA's first 50 years 
plus of programs and missions have been awe-inspiring. I want 
to keep that spirit alive for decades to come.
    [The prepared statement of Mr. Palazzo follows:]

     Prepared Statement of Subcommittee Chairman Steven M. Palazzo

    Good morning. I'd like to welcome everyone to our hearing. I 
especially want to thank our witnesses for joining us today. I know 
many people put in a lot of effort preparing for these hearings, and we 
appreciate you taking time from your busy schedules to appear before 
the Subcommittee. I also want to assure you that we greatly value your 
expertise and wisdom, and that your testimony will benefit this 
committee in the weeks and months ahead as we endeavor to ensure 
development of these important new programs.
    The purpose of today's hearing is to discuss NASA's and industry's 
progress, next steps, and challenges developing our nation's next 
generation heavy-lift launcher and crew capsule. For the next several 
decades, the Space Launch System and Orion multipurpose crew vehicle 
will give our country the capability to launch exciting new human 
spaceflight exploration missions and robotic science missions. No other 
country has the technical expertise or industrial base to produce 
anything similar to SLS and Orion, making it all the more compelling to 
ensure that these programs continue without interruption.
    It's also important to realize other significant benefits that flow 
from the SLS and Orion programs. First, by building a heavy-lift 
vehicle, we'll enable bold new science missions and I look forward to 
Dr. Mountain's testimony about the scale of potential flagship missions 
that might be conceived for launching ten or fifteen years from now. I 
am optimistic that once our government's fiscal health has been 
restored, NASA will have the resources to again consider robotic 
flagship missions that will maintain the momentum we currently enjoy 
with missions such as MSL.
    Second, looking at the health and vitality of our aerospace 
industrial base, SLS and Orion will continue to challenge our best and 
brightest engineers to design and develop advanced propulsion, 
avionics, and manufacturing capabilities that will maintain America's 
preeminence in space. To be clear, there are a number of emerging space 
powers who may, in time, be tempted to challenge our leadership in 
space, and especially space-based technologies that are fundamental to 
our economy, our quality of life, and our national security. We simply 
can't afford to scale back investments in aerospace R&D or we may, in 
time, put future generations of Americans at risk.
    Finally, I worry that without SLS and Orion, NASA's and our 
country's ability to do `the hard stuff' --cutting edge space 
exploration--would be seriously impaired. NASA's first 50 years plus of 
programs and missions have been awe-inspiring. I want to keep that 
spirit alive for decades to come.
    Thanks again to our witnesses for appearing before us this morning.

    Chairman Palazzo. I would now like to yield my remaining 
time to the chairman of the full Committee, Representative 
Ralph Hall, for any comments he would like to make.
    Chairman Hall. Mr. Chairman, I of course thank you for 
holding this morning's hearing, and I thank the four gentlemen 
there for the time they gave in preparation, travel and for 
giving us this information that you give us.
    The Space Launch System, as the Chairman said, and Orion 
crew vehicle are going to enable NASA's future human deep space 
exploration and it is vitally important that they be continued, 
I think, and I think most of us think that, and if Congress and 
the Administration work together to keep these programs on 
track and on schedule, but having said that, I continue to 
worry about NASA's commitment to the Space Launch System and 
Orion.
    The agency delayed design selection of SLS for 11 months 
following enactment of the 2010 Authorization Act. Its budget 
request for these two programs falls significantly short of 
amounts authorized. I have yet to see evidence that design and 
development of Orion service module, which would be required to 
support any multiday mission, has begun. No mission destination 
has been selected other than an asteroid to be named later, and 
while I acknowledge the Administration argues we have already 
been to the moon, I find it questionable that a trip beyond 
low-Earth orbit does not include the moon as an interim 
destination, maybe or maybe not, but to be considered to keep 
in view that we are considering it, the research and 
development systems that will be required for missions to other 
planets such as Mars. I have sense enough to know we are not 
going to Mars or on asteroid or anywhere else until people can 
go to the grocery store, and by that I know that the economy 
has got to get a lot better, but we have to be ready for it and 
that is continuing to be preparing and seeking it.
    Once the International Space Station is retired, we will 
have no manned presence in space except for missions launched 
on SLS and Orion. Without this new launch system, the 
technological capability, inspiration and innovation that 
springs from our human spaceflight programs is going to wither. 
None of us can afford to allow that to happen.
    Mr. Chairman, I thank you and I yield back my time.
    [The prepared statement of Mr. Hall follows:]

              Prepared Statement of Chairman Ralph M. Hall

    Mr. Chairman, I want to thank you for holding this morning's 
hearing.
    The Space Launch System and Orion crew vehicle will enable NASA's 
future human deep space exploration program. It is vitally important 
they be continued, and that Congress and the Administration work 
together to keep these programs on track and on schedule.
    But having said that, I continue to worry about NASA's commitment 
to SLS and Orion. The agency delayed design selection of SLS for 11 
months following enactment of the 2010 authorization act. Its budget 
requests for these two programs fall significantly short of amounts 
authorized. I have yet to see evidence that design and development of 
an Orion service module--which would be required to support any multi-
day mission--has begun. No mission destination has been selected, other 
than an asteroid to be named later. And while I acknowledge the 
Administration argues we've already been to the Moon, I find it 
questionable that a trip beyond lower earth orbit does not include the 
Moon as an interim destination to research and develop systems that 
will be required for missions to other planets such as Mars.
    Once the International Space Station is retired, we will have no 
manned presence in space except for missions launched on SLS and Orion. 
Without this new launch system, the technological capability, 
inspiration, and innovation that springs from our human spaceflight 
program will quickly wither. None of us can afford to allow that to 
happen.
    Thank you, Mr. Chairman. I yield back.

    Chairman Palazzo. Thank you, Mr. Chairman, and thanks again 
to our witnesses for appearing before us today.
    I now recognize Mr. Clarke for an opening statement.
    Mr. Clarke. Thank you, Mr. Chairman, and I appreciate the 
opportunity to be Ranking Member of this Subcommittee on this 
very important issue. We want to make sure that the plans, 
status and development of these two important projects are on 
time, and as we are well aware, our Authorization Act in 2010 
directed NASA to develop both support human exploration beyond 
low-Earth orbit, provide backup capability to deliver crew and 
cargo to our International Space Station, and to preserve the 
critical capabilities of our aerospace workforce and industrial 
base. And we are all aware that the task of getting SLS's and 
Orion's architecture underway wasn't an easy one.
    Back in March of last year, this Subcommittee pressed 
members of NASA for a final decision on the configuration of 
the next heavy-lift vehicle for returning Americans to human 
exploration beyond low-Earth orbit, which is our ultimate goal, 
at least on an interim basis, by 2021.
    A year ago this month, we got the decision that the 
integrated SLS and Orion crew capsule architecture that NASA is 
currently developing, we got a decision on that. This system 
builds on the successful and proven space shuttle technologies 
as well as new developments begun under the former 
Constellation program before it was ended.
    While NASA's decision took some time, I am encouraged that 
in just a year since announcing the final architecture, NASA 
and its industry contractors have made considerable progress, 
and that is something I would like to talk to you about today 
as well.
    The Orion capsule has been delivered to the Kennedy Space 
Center in preparation for an uncrewed test flight in 2014. The 
SLS has completed its initial stage of review, which confirmed 
the vehicle concept, the overall architecture, and the design 
and integration approach. Now, in addition to the 2014 test 
flight of Orion, NASA's plans include an integrated SLS and 
Orion uncrewed test flight in 2017 and the first crewed test 
flight by 2021.
    So it is my hope today that you as witnesses can help us 
understand how these test flights will help identify risks 
early on to human flight, any challenges that they face in 
meeting those milestones, and what is needed to ensure the 
earliest possible date for returning Americans to deep space 
exploration.
    My next remarks have some great references to an 
outstanding American, Neil Armstrong, who came to this 
Committee a year ago next week. But as someone that is a Baby 
Boomer that was a kid during the 1960s, I remember as a kid 
President Johnson standing before, President Kennedy as well 
standing before the American people and being committed to the 
goal of sending Americans to the moon. President Kennedy said 
that in such an inspiring way. Those same principles of what he 
spoke about are embodied in the success of NASA Authorization 
Acts over the last several years, and what I believe is so 
important is that we work to achieve those goals set forth by 
Congress in those Acts by returning Americans to deep space 
exploration.
    Thank you and I yield back the balance of my time.
    [The prepared statement of Mr. Clarke follows:]

 Prepared Statement of Acting Ranking Minority Member Hansen H. Clarke

    Chairman Palazzo. Thank you, Mr. Clarke.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this point.
    Before introducing the witnesses, the Chair wishes to express his 
thanks to Mr. Lacefield and Mr. Chilton for agreeing to appear before 
this Committee on relatively very short notice. While we normally 
require witnesses to provide testimony 48 hours in advance of a 
hearing, under the current circumstances, it would be inappropriate to 
hold them to the same standard, and we are pleased they are able to 
join us here this morning.
    At this time I would like to introduce our panel of witnesses, and 
then we will proceed to hear from each of them in order. Our first 
witness is Mr. Dan Dumbacher, the Deputy Associate Administrator for 
Explorations Systems Development at NASA. Mr. Dumbacher joined NASA in 
1979 at the Marshall Space Flight Center. He has held a number of 
management positions during his career including most recently heading 
the Engineering Directorate at Marshall. Mr. Dumbacher has also served 
as Deputy Director of the Exploration Launch Projects Office, Deputy 
Director of the Ares Project Office, and Deputy Director of the Safety 
and Mission Assurance Office. He has received a number of awards and 
honors during his career with NASA, and Mr. Dumbacher graduated from 
Purdue University with a degree in mechanical engineering.
    Our second witness is Mr. Cleon Lacefield, Vice President and Orion 
Program Manager at Lockheed Martin Corporation. He has more than 34 
years of aerospace experience beginning in the Navy as an A-7 pilot, 
then moving over to NASA where he participated in a number of 
spaceflight programs including as Flight Director at Mission Control in 
Houston and as Director in the X-33 program. Mr. Lacefield earned a 
number of awards and honors during his tenure at NASA and as a graduate 
of California Polytechnic State University.
    Our third witness is Mr. Jim Chilton, Vice President and Program 
Manager for Exploration Launch Systems at Boeing. Previously, Mr. 
Chilton served as Program Manager for the checkout, assembly and 
payload processing services contract at Boeing's Kennedy Space Center 
facility. Mr. Chilton joined Boeing at the Rocketdyne division as an 
engineer serving a number of roles in engine test and launch 
operations. Mr. Chilton holds a bachelor's degree in mechanical 
engineering from Washington State University and a master's degree in 
space technology from the Florida Institute of Technology.
    Our final witness is Dr. Matt Mountain, Director of the Space 
Telescope Science Institute. Dr. Mountain has been director of the 
institute since September 2005. He leads the 400-person organization 
responsible for the science operations of the Hubble Space Telescope. 
He is the James Webb Space Telescope's telescope scientist, a member of 
the JWST Science Working Group, a professor at the Johns Hopkins 
University's Department of Physics and Astronomy, and a visiting 
professor at the University of Oxford. Dr. Mountain is a fellow of the 
American Astronomical Society and the Royal Astronomical Society and 
the American Association for the Advancement of Science.
    Thanks again to our panel for being here this morning. As our 
witnesses should know, spoken testimony is limited to five minutes 
each. After all witnesses have spoken, Members of the Committee will 
have five minutes each to ask questions.

    I now recognize our first witness, Mr. Dumbacher, to 
present his testimony.

                STATEMENT OF MR. DAN DUMBACHER,

               DEPUTY ASSOCIATE ADMINISTRATOR FOR

             EXPLORATION SYSTEMS DEVELOPMENT, NASA

    Mr. Dumbacher. Mr. Chairman and Members of the 
Subcommittee, thank you for this opportunity to update you on 
NASA's Explorations Systems Development Programs, which are 
depicted on the posters to my left: the Orion multipurpose crew 
vehicle, the Space Launch System and the related ground 
systems, and you can see there evidence of some of our 
progress.
    Today marks the 50th anniversary of President Kennedy's 
speech at Rice University in which he discussed America's space 
efforts and particularly the coming missions to the moon. As 
the Nation celebrates the achievements of Neil Armstrong and 
the realization of President Kennedy's goal, I am pleased to 
inform you that we are making excellent progress towards 
developing the next-generation capabilities for human space 
exploration beyond low-Earth orbit.
    Orion is a four-person spacecraft designed to support 
exploration missions to multiple destinations. We have pressed 
forward with the design and manufacture of the first flight 
test article and the first flight test crew module structure is 
at Kennedy Space Center for assembly and integration. In 
addition, the program has completed significant acoustic and 
vibration testing, water impact test and parachute tests. 
Fabrication of the heat shield has been initiated, and the 
testing of avionics and software systems continues.
    Orion will be used in the uncrewed exploration flight test 
in 2014. This will be a two-orbit, high-energy reentry test 
mission that will obtain critical performance data needed to 
confirm the design of the spacecraft. Exploration flight test 
one will also serve as a pathfinder to validate innovative 
approaches, reduce cost, demonstrate recovery procedures and 
develop the launch vehicle adapter. This adapter will also be 
used on the uncrewed flight in 2017 and the first crewed 
flights beginning in 2021.
    The Space Launch System is a heavy-lift launch vehicle that 
will transport Orion as well as cargo and other systems with a 
range of lift capabilities from 70 metric tons evolving up to 
130 metric tons. The Space Launch System team completed the 
required acquisition strategy process and had all contractors 
working by December 31, 2011. The team has completed key 
reviews and over the next year is proceeding to preliminary 
design review for the booster and core stage elements as well 
as the integrated Block 1 vehicle.
    The Space Launch System core stage team has successfully 
completed its systems definition review. Fifteen RS-25D liquid 
hydrogen engines have been delivered to the Stennis Space 
Center in preparation for installation and tests on the core 
stage. NASA has initiated efforts to prepare the B-2 test stand 
at Stennis for the core stage testing. Solid booster segments 
are being prepared for the qualification motor test with the 
first such test slated for next May.
    In July, NASA selected six proposals under an open, 
competitive NASA research announcement to improve the booster's 
affordability, reliability and performance. These initial risk 
reduction tests will be followed by full and open competition 
for the full-scale design and development work leading to an 
advanced booster for the evolved Space Launch System.
    The 130-metric-ton Block 2 Space Launch System 
configuration will require a new upper stage utilizing the J-2X 
engines currently in development testing. J-2X has completed a 
total of over 3,250 seconds in 29 tests on the engine power 
pack.
    In the exploration ground systems effort, the Kennedy Space 
Center team has made significant progress on the necessary 
infrastructure design, development and refurbishment to support 
the Space Launch System and Orion. The Kennedy Space Center is 
proceeding also through its key reviews. The Center has 
completed the first phase of mobile launcher construction. 
Refurbishment and upgrades to the crawler-transporter are being 
performed at a pace to support the 2017 flight test.
    In addition, work is beginning on the vehicle assembly 
building to support the Space Launch System. Pad 39B has been 
prepared for the mobile launcher with lightning towers in place 
and the needed refurbishment to pad infrastructure.
    As we move forward, NASA is working to keep all of these 
efforts integrated and coordinated. We successfully completed 
an integrated systems requirements review in February of 2012 
for all of the integrated systems, and are progressing toward 
our integrated systems definition review early next year. The 
agency is working with an affordable model using a smaller 
number of level 1 requirements similar to what we did during 
the Apollo program. We have also streamlined the decision and 
integration processes to assure timely decision-making while 
addressing the needed technical aspects.
    The NASA industry team has made great progress over the 
past year. Orion and the Space Launch System fit well within a 
broader U.S. launch strategy of procuring commercial launches 
for crew and cargo to the International Space Station while 
concentrating NASA's development efforts on exploration 
missions beyond low-Earth orbit including flights to asteroids. 
Both Orion and Space Launch System are being designed to 
support multiple missions and destinations rather than being 
optimized for one particular mission or architecture. 
Ultimately, these capabilities will pave the way for the human 
missions to the Mars.
    Mr. Chairman, again, thank you for the opportunity to 
appear before you today to provide you with our progress and 
status over the past year. I would be happy to respond to any 
questions you or the other Members of the Subcommittee may 
have.
    [The prepared statement of Mr. Dumbacher follows:]

    [GRAPHIC] [TIFF OMITTED] T6236.008
    
    [GRAPHIC] [TIFF OMITTED] T6236.009
    
    [GRAPHIC] [TIFF OMITTED] T6236.010
    
    [GRAPHIC] [TIFF OMITTED] T6236.011
    
    [GRAPHIC] [TIFF OMITTED] T6236.012
    
    Chairman Palazzo. Thank you.
    I now recognize Mr. Lacefield for five minutes to present 
his testimony.

               STATEMENT OF MR. CLEON LACEFIELD,

           VICE PRESIDENT AND ORION PROGRAM MANAGER,

                  LOCKHEED MARTIN CORPORATION

    Mr. Lacefield. Chairman Palazzo, Chairman Hall, Mr. Clarke, 
Congressman Clarke, and Members of the Space and Aeronautics 
Subcommittee, it is a pleasure for me to testify before you 
today concerning the Orion spacecraft and its contribution to 
the future of America's human space exploration program.
    As you are well aware, Orion is the world's first 
interplanetary spacecraft supporting safe, long-duration human 
exploration and scientific discovery missions to deep space 
including the moon, asteroids, the moons of Mars, and 
ultimately Mars itself. Orion is complementary to and indeed 
has contributed to the development of technologies for many of 
NASA's programs.
    The NASA-Lockheed Martin, Orion team is comprised of 
Lockheed Martin, Aerojet, ATK, Hamilton Sundstrand, Honeywell 
and many business suppliers in 41 states. It is an exceptional 
team that includes some of the most highly motivated engineers 
employed by in industry. On the government side, it is led by 
NASA's Johnson Space Center in Houston, and involves a number 
of other NASA centers across the country. The Orion team 
continues to make tremendous progress developing, 
manufacturing, assembling and testing this state-of-the-art 
space exploration vehicle.
    We are currently advancing toward our next major milestone, 
Exploration Flight Test-1, or EFT-1, in 2014, leading to 
follow-on orbital flight testing of Exploration Mission-1, EM-
1, and subsequent crewed flight far beyond low-Earth orbit in 
deep space, Exploration Mission 2, or EM-2. EM-1 and EM-2 will 
fly on the Space Launch System managed by NASA's Marshall Space 
Flight program in Huntsville, Alabama.
    The following are examples of major program technical 
progress and our commitment to crew safety and system 
reliability. We have successfully tested a new launch abort 
system during Pad Abort Test-1 at White Sands Missile Test 
Range in New Mexico to demonstrate our capability to protect 
the crew under emergency conditions. In collaboration with NASA 
and our Colorado-based Ball Aerospace teammate, we developed an 
innovative navigation and docking system called STORRM, which 
was successfully tested during space shuttle mission STS-134.
    We have completed parachute tests at the Yuma Proving 
Ground in Arizona, and we are continuing water landing tests at 
the Hydro Basin facility at NASA's Langley Research Center in 
Virginia, and we are building propulsion system components at 
Lockheed Martin's facility located at NASA's Stennis Space 
Center in Mississippi. We have successfully completed 
spaceflight acoustic and vibration testing on the Orion Ground 
Test Article spacecraft at Lockheed Martin's facility in 
Colorado, and we delivered the EFT-1 Orion crew module to the 
Operations and Checkout facility--America's spacecraft factory 
for the future--at NASA's Kennedy Space Center in Florida, with 
work moving forward on critical subsystem installation, 
assembly and test.
    The NASA-Lockheed Martin team has also initiated major 
affordability measures and streamlined Orion program management 
oversight by incorporating proven commercial practices. That 
said, it remains critically important that Congress maintain 
fiscal 2013 funding at the current level to ensure timely and 
successful implementation of EFT-1 in 2014, as well as outyear 
budgets to support EM-1 and EM-2. In fact, Orion's considerable 
progress and the importance of our continued commitment to crew 
safety, reliability and risk mitigation testing was emphasized 
by the Aerospace Safety Advisory Panel, ASAP, in its most 
recent review of the Orion and SLS programs.
    Mr. Chairman, with your leadership and continued bipartisan 
support of this Committee, Congress and the President, Orion, 
together with SLS, is prepared for unprecedented missions of 
exploration and discovery, taking humans further into the solar 
system than ever before experienced, while encouraging STEM 
education among our youth and providing high-tech careers and 
jobs.
    Thank you again for this opportunity to testify, and I look 
forward to answering your questions. Thank you.
    [The prepared statement of Mr. Lacefield follows:]

    [GRAPHIC] [TIFF OMITTED] T6236.013
    
    [GRAPHIC] [TIFF OMITTED] T6236.014
    
    [GRAPHIC] [TIFF OMITTED] T6236.015
    
    [GRAPHIC] [TIFF OMITTED] T6236.016
    
    [GRAPHIC] [TIFF OMITTED] T6236.017
    
    [GRAPHIC] [TIFF OMITTED] T6236.018
    
    Chairman Palazzo. Thank you.
    I now recognize our third witness, Mr. Chilton, for five 
minutes to present his testimony.

                 STATEMENT OF MR. JIM CHILTON,

         EXPLORATION VICE PRESIDENT, THE BOEING COMPANY

    Mr. Chilton. Good morning. Chairman Palazzo, Chairman Hall, 
Ranking Member Clarke, Congressman Brooks, on behalf of Boeing, 
thanks for the opportunity to be here. We want to thank you for 
your continued support of human spaceflight. You enabled a safe 
fly-out of the shuttle, completion of ISS and outlining this 
path for beyond-Earth-orbit exploration. Without your 
Committee, this wouldn't have happened, so thank you very much. 
It is a great honor to be here.
    As previously stated, the Space Launch System is an enabler 
for human deep space exploration needed to propel elements free 
of Earth's gravity. It can serve as the backbone of our 
Nation's space program in any post-ISS era.
    I would like to start by talking about challenges per your 
request. It is worth noting up front that many potential 
challenges on SLS have already been avoided. NASA quite wisely 
selected an architecture that allows reuse of designs and 
elements that have been very successful in other programs. This 
separation of product development and technology development 
increases our overall confidence in schedule, cost and mission 
success.
    That said, accomplishing rapid development of the core 
stage of Block 1 of the SLS is foremost among the remaining 
challenges. The SLS engines and boosters are heritage space 
shuttle elements. The SLS Block 1 upper stage is directly 
adapted from our Delta IV heavy launch vehicle but the core 
stage, on the other hand, is a clean-sheet design, meaning the 
existing elements are waiting for the core stage to catch up 
with them.
    To see the schedule challenge, we can compare the lead time 
required to produce a shuttle external tank to the time 
allotted for this core stage development. As the shuttle neared 
her end schedule estimates for calling up another ET ranged 
from 36 to 44 months. The time allotted from system 
requirements review completion that Mr. Dumbacher mentioned is 
about 51 to 54 months, and the core stage has got to design and 
certify that design in close to the same time, so it gives you 
a feel for the kind of challenge.
    A flat budget profile for SLS, which is atypical for 
development programs, creates yet another unique challenge, and 
it necessitates that SLS development occur through an 
evolutionary process. Simultaneous development of all the 
elements needed to get to the final configuration of the SLS 
won't be possible under that flat budget profile so NASA will 
have to choose so that each succeeding element developed offers 
the most incremental beyond-Earth-orbit performance for the 
smallest cost. As we work the cryogenic stages, we are 
retaining the option for that element to be a large upper stage 
should NASA choose it so that the maximum economic efficiency 
can be gained from our core stage efforts.
    As far as risk reduction goes, we are reducing risk through 
adaptation of existing subsystems and components even though 
the core stage will be new. We have to ensure SLS is a 
standalone exploration-class rocket that can be adapted to many 
missions that emerge over many years. This is going to require 
a guidance system independent of payloads or crew systems so it 
can serve multiple users in crew and cargo configuration. To 
ensure we can get there on time, we have chosen to produce many 
of the key elements in-house at Boeing. The best example of 
this is the overall vehicle flight computer. We have based it 
on a proven Boeing commercial satellite design and already have 
gotten to a critical design review and put test versions in the 
lab for NASA software.
    To keep SLS and the overall programs stable over the long 
haul, it is important to ensure SLS is protected and nurtured 
long enough to succeed. Preventing temporary budget variations 
from impacting schedules is a key part of that. Stable funding, 
which should include planning for funding that escalates with 
inflation, will allow a steady and predictable progress. 
Construction of facility tasks should be fully funded even 
under continuing-resolution conditions early in the program so 
we can get the factory and test facilities up and active. We 
also will work hard with NASA to get defined contracts in place 
that allow thorough interrogation of costs and schedule for the 
long haul and the integrated baseline reviews.
    Our progress has been really strong. We started in 
December, as Mr. Dumbacher mentioned. We have already passed 
through a system requirements review and system definitions 
review 2 months ahead of our contract milestones. Our first 
hardware deliveries are already behind us in the avionics area, 
and design tempo is increasing daily.
    On the manufacturing side, we are past 50 percent on all 
the major tools. We will begin installation of the big tooling 
mission at Michoud late this year and finish late next so we 
will have an active factory by early 2014.
    Our manufacturing developments are influenced and designed 
very positively. Early test welds indicate we are going to get 
to four weld thicknesses and about 14 unique schedules compared 
to 14 thicknesses and about 75 schedules on an external tank. 
That and less costly materials are going to make it much more 
affordable for the government.
    Our plan for progress upcoming, we get to a preliminary 
design late this year or early next, critical design mid-2014, 
and we plan for first flight in 2017.
    To close, NASA's unrelenting focus on mission success has 
always driven us and it still is in the way we are designing 
the SLS today on our pace.
    Thank you for the chance to testify today.
    [The prepared statement of Mr. Chilton follows:]

    [GRAPHIC] [TIFF OMITTED] T6236.019
    
    [GRAPHIC] [TIFF OMITTED] T6236.020
    
    [GRAPHIC] [TIFF OMITTED] T6236.021
    
    [GRAPHIC] [TIFF OMITTED] T6236.022
    
    [GRAPHIC] [TIFF OMITTED] T6236.023
    
    [GRAPHIC] [TIFF OMITTED] T6236.024
    
    [GRAPHIC] [TIFF OMITTED] T6236.025
    
    [GRAPHIC] [TIFF OMITTED] T6236.026
    
    Chairman Palazzo. Thank you.
    I now recognize our final witness, Dr. Mountain, for five 
minutes to present his testimony.

           STATEMENT OF DR. MATT MOUNTAIN, DIRECTOR,

               SPACE TELESCOPE SCIENCE INSTITUTE

    Dr. Mountain. Mr. Chairman and Members of the Subcommittee, 
Chairman Hall, let me first thank you for your continuing 
support of space science, an endeavor where the United States 
leads the world.
    In response to your questions about the role large space 
launch vehicles like NASA's Space Launch System could play in 
space science, let me provide some context. The partnership 
between NASA's science and human spaceflight programs has led 
to globally recognized icons of science such as the Hubble 
Space Telescope. A large launch system such as SLS provides 
another opportunity that could allow us to observe amazing 
phenomena that are well beyond the capabilities of the Hubble, 
the James Webb Space Telescope or our existing fleet of 
interplanetary spacecraft.
    Imagine being able to answer the question that spurs 
endless wonder across the millennia: are we alone? That answer 
is now within reach. Imagine returning samples of Martian soil 
back to Earth in a single mission for analysis. Imagine landing 
a new generation of probes on far more distant bodies such as 
the icy moons of Jupiter, to drill through the ice of Europa 
and see if life may have existed or even continues to exist 
there.
    Our imagination can become reality if NASA and the science 
community can find cost-effective ways to use the Space Launch 
System. Let me give some examples. The SLS has the potential to 
completely change the paradigm for building future space 
telescopes that simply would not be possible today. To search 
for the evidence of biological activity, life on hundreds of 
potentially habitable worlds that exist beyond our solar system 
would require a telescope that has a primary mirror that is 15 
to 25 meters across. That is three to four times larger than 
the James Webb Space Telescope. The SLS would allow us to 
efficiently bring greatly simplified building blocks of such a 
telescope to low-Earth orbit where they could be assembled and 
moved to a more distant orbit. By both having the transport 
capacity and by providing the human or robotic infrastructure 
to assemble such a system in space, the SLS is the key tool 
needed to answer the question: are we alone?
    Another example is the recent Planetary Decadal Survey's 
top priority: Mars sample return. To make this complex mission 
feasible with existing launch technologies, it had to be 
carried out over three separate launches, significantly 
stretching out this mission's duration and potential cost. The 
current SLS has the capability to combine all three into a 
single launch.
    So what are the characteristics of an SLS that enable such 
an exciting scientific future for the U.S. space program? 
First, the 70- to 130-metric-ton lift capacity to low-Earth 
orbit means that more conventional materials and components can 
be used in spacecraft and observatory design. Ultra-lightweight 
components could be replaced with heavier, more rigid 
structures and perhaps more high-cost, specialized components 
could be replaced with more commercialized systems. This 
simplifies the design, consequently reduces mission risk, and 
hopefully cost.
    Secondly, the SLS must be able to launch not just more mass 
but the payload fairing must be able to accommodate large 
volumes so we can simplify telescopes and large missions by 
reducing all or many of the on-orbit deployments that could 
otherwise be needed if one only had access to smaller launch 
vehicles.
    Third, for some science missions, the ability of an SLS 
system to also bring up sophisticated robots or astronauts to 
assemble or service future complex science missions is a really 
exciting opportunity.
    Fourth, the solar system missions, the increased energy of 
SLS launch vehicle also means planetary science payloads can be 
launched over a wider range of launch windows and in some cases 
being able to travel directly to solar system bodies, saving 
transit time.
    Finally, but crucially, science can only realistically use 
Space Launch System if its availability for research missions 
is both reasonably frequent, probably at least once a year, and 
not excessively costly to the science mission providing that 
payload. There is a multi-decade precedent for this: the 
partnership between human spaceflight and science that has 
enabled 22 years of unparalleled discoveries with the Hubble 
Space Telescope. The costs of a space shuttle for the Hubble 
was not fully borne by NASA's Space Mission Directorate, rather 
provided as part of NASA's spaceflight infrastructure for use 
by the entire agency. Science should be considered an essential 
and exciting partner in the exploration endeavor but science 
cannot drive the development of a human spaceflight system.
    In closing, the SLS can definitely enable several very 
ambitious and imaginative science missions that only NASA and 
this Nation can do. The results will be truly inspirational.
    Mr. Chairman, thank you again for your support and that of 
the Subcommittee. I will be pleased to respond to any 
questions.
    [The prepared statement of Dr. Mountain follows:]

    [GRAPHIC] [TIFF OMITTED] T6236.027
    
    [GRAPHIC] [TIFF OMITTED] T6236.028
    
    [GRAPHIC] [TIFF OMITTED] T6236.029
    
    [GRAPHIC] [TIFF OMITTED] T6236.030
    
    [GRAPHIC] [TIFF OMITTED] T6236.031
    
    [GRAPHIC] [TIFF OMITTED] T6236.032
    
    Chairman Palazzo. I thank the panel for their testimony, 
reminding Members that the Committee rules limit questioning to 
five minutes.
    The chair will at this point open the round of questions. 
The chair recognizes himself for five minutes.
    Both the SLS and the Orion programs are operating under a 
flat funding profile through the first uncrewed flight in 
December 2017. How will NASA address any developmental 
challenges that cannot be managed within the constraints of the 
current budget, Mr. Dumbacher?
    Mr. Dumbacher. We are working hard within that flatline 
budget to phase the content. Our plan is set up to deliver on 
2017 and 2021 as it has been submitted. The process that we 
have to go through, number one, is to make sure that the 
integrated system stays together in terms of SLS, Orion and 
ground systems all arriving at the needed delivery dates with 
the needed technical capabilities on time, and we work hard to 
do that.
    How we do this is, one, we purposely chose a system that 
had minimal development risk. In the past with launch vehicle 
development propulsion systems are typically the high-risk 
items. By utilizing the RS-25's shuttle main engines from the 
shuttle program as well as boosters with shuttle heritage and 
Constellation development behind them, we have minimized a lot 
of that risk, and then we have to phase in the content, the 
program content, to support 2017 to be able to handle the 
natural development curve for things for elements such as the 
core stage, and we have been very deliberate, very detailed in 
our planning to put that plan together, to phase the content so 
that we arrive with the integrated system at 2017 to 2021.
    Chairman Palazzo. Mr. Lacefield or Mr. Chilton, if you 
would like to comment?
    Mr. Lacefield. Yes. I would like to add that we are very 
well synchronized with the Space Launch System and Gemini have 
a lot of contact and we are staying closely integrated between 
Orion and SLS. What that allows us to do is, we have put 
together a plan working with NASA and industry that we feel is 
a high-confidence plan working towards 2017. We have worked 
multiple options with NASA looking at things that we could 
defer or things that we could pull forward, depending on the 
activities on the program or the needs of the program, and I 
think that allows us a great flexibility to accomplish what Dan 
is talking about.
    Chairman Palazzo. Although potential missions have been 
discussed, NASA is currently designing SLS and Orion to be 
flexible with regard to multiple missions and/or destinations. 
When does NASA expect to determine these missions and 
destinations? What is the impact of designing a vehicle with 
multiple capabilities, some of which would not be used 
depending on the destination, Mr. Dumbacher?
    Mr. Dumbacher. First of all, as you have seen in the 
agency's delivered exploration goals and destinations report 
from a week or so ago, we are looking at multiple destinations. 
We are in the process of doing the mission analysis at this 
time. We know that the ultimate destination is Mars. The 
intermediate destinations between where we are today and Mars 
and the exact timing of those are being sorted out through our 
mission analysis, and we are looking at options such as the 
asteroids, lunar space, lunar orbit, Lagrangian points, et 
cetera, on the way. That mission analysis is in work and also 
starting to understand what the implications can be to Orion 
and SLS. The process we are working very hard to do is get the 
fundamental capabilities, that is, the heavy-lift launch 
vehicle and the spacecraft, in place. We need those for any 
destination we go to, and then as we sort the mission planning, 
add the additional elements in that we need to execute the 
given missions at a given time, and of course, the timing of 
all that is based on the mission analysis and the available 
funding.
    Chairman Palazzo. Mr. Lacefield, do you anticipate each 
production Orion to be essentially the same basic design with 
components and systems to be inserted based on mission 
requirements?
    Mr. Lacefield. We are certainly set up that way. We have a 
very capable vehicle that we can actually add mission kits to 
for whatever the destination is. We have done a lot of mission 
work with NASA, and Boeing has been with us as we have been 
supporting NASA in their mission development to make sure that 
the capability that we have or the mission kits that we have 
are easily obtainable and easy for us to reconfigure flight to 
flight if so needed.
    Right now, the way that we are looking at the architecture 
is most everything that we need will be built into the first 
vehicle that we fly, EM-1, so that there is little update, if 
any update, for EM-2 such that we have the capability as soon 
as possible to get as much flight test time as we can on the 
vehicles before we put humans in the vehicles.
    Chairman Palazzo. Same basic question for Mr. Chilton on 
the Boeing's SLS design.
    Mr. Chilton. Yes. For all our cryogenic stages and 
especially core stage, we contemplate the same production 
configuration for economic advantage, and mods, we would 
anticipate, would only be driven by missions that are much 
further out than the early configs, and anything for 
obsolescence. All of that we see as next decade or beyond, so 
your question about schedule, to hold schedule and make sure we 
can get into a single configuration for economic advantage, we 
plan to fly the same stages every time.
    Chairman Palazzo. Mr. Lacefield, your hearing statement 
makes reference to work being done on Orion at Stennis. Could 
you please elaborate on the nature of the Orion work being done 
there?
    Mr. Lacefield. Certainly. We are utilizing our Lockheed 
Martin space satellite factory there to manufacture all of the 
propulsion components needed for Orion so we are doing all of 
the tube styles, regulators and actually a lot of the 
insulation blankets are all done at Stennis and then shipped to 
Florida for assembly into the vehicle. It is a facility that in 
Lockheed Martin is known for its ability to put high-pressure 
systems together and weld them and have high reliability and we 
are using that factory for Orion.
    Chairman Palazzo. Thank you. I now recognize Mr. Clarke.
    Mr. Clarke. Thank you, Mr. Chair, and I also have concerns 
about adequate funding for both of these important projects. I 
am also from the city of Detroit, metropolitan Detroit. We are 
also concerned about creating more jobs, but we will deal with 
the economic benefits of these projects later on.
    Mr. Dumbacher, under a Continuing Resolution for fiscal 
year 2013, what level of funding and what spend rate will SLS 
and Orion get?
    Mr. Dumbacher. Under the current understanding of what the 
six month Continuing Resolution will contain, we are planning 
to 50 percent of the fiscal year 2012 appropriations levels, 
and that will be the spend rate that we are working to on SLS 
and Orion for the first six months. We do have to recognize, 
however, that the uncertainty in the potential budget 
appropriations for the remainder of the fiscal year also need 
to be included in our planning, and we are working to address 
that. But in the near term, we are planning for the next six 
months to plan at 50 percent of the fiscal year 2012 
appropriations level.
    Mr. Clarke. Now, have you been given any guidance regarding 
the CR?
    Mr. Dumbacher. What I just talked about, the fiscal year 
2012 50 percent level is the guidance I have been given.
    Mr. Clarke. All right. Even though we have made 
considerable progress in the development of both of these 
projects, we still have critical milestones ahead. As Congress 
and the Administration are weighing our funding priorities, how 
important is the need for funding and spending stability over 
this next year, and what is the impact of not getting it? I 
know many of you have actually alluded to this but, Mr. 
Dumbacher, I would like to know your opinion.
    Mr. Dumbacher. Funding stability of any endeavor of this 
magnitude--launch vehicles, spacecraft--is critical to the 
program planning and program success. The ability to plan into 
the future and to understand what the future holds within some 
reasonable level of understanding allows us to set up our 
program plans, to address that and then allows us to go 
execute. Changes to or instability in the funding forces replan 
work, rework, and all of that effort takes away from our 
ability to actually execute and get the hardware developed and 
build the program.
    Mr. Clarke. Thanks, Mr. Dumbacher.
    Mr. Lacefield or Mr. Chilton, do you care to comment on the 
impact of not getting the funding that we need?
    Mr. Lacefield. NASA has been very good at telling us what 
the levels are to assume and we have planned the program to 
those levels. But I would like to emphasize that with our 
workforce, and our workforce is our most important asset, and 
maintaining those critical skills across the program we believe 
is really important, the funding stability is extremely 
important to us because that is the way that we have to look at 
the program as we go through the different phases and we go 
from engineering phase to development phase to a test phase. It 
allows us to bring those people across those interfaces so they 
are available for the EM-1 and EM-2 missions. So having that 
stability allows us to keep that professional workforce, which 
is vital to these high-performance programs.
    Mr. Clarke. Thank you.
    Mr. Chilton. I would like to add that there is a bit of an 
unseen element in addition to cost, schedule and skills. We 
have had great luck attracting talent fresh out of college. A 
lot of young people have joined these programs. They see it as 
a very attractive place to go. I have experience on other 
programs where we started and didn't finish and had to stop. We 
don't get those young people back. They begin to see this 
industry as unattractive or unstable. They have a strong desire 
to start something and finish it, take something to flight. So 
I would argue our STEM attraction, it is important to keep 
stable and make progress.
    Mr. Clarke. Mr. Chilton, that is an interesting dimension 
to this funding issue. How important is it to actually get our 
young college graduates into the space programs?
    Mr. Chilton. In my----
    Mr. Clarke. Or do you have enough people right now in place 
at NASA with to be able to--and with your company and other 
contractors.
    Mr. Chilton. I will speak for Boeing. The Space Launch 
System currently is a great attractor of students out of 
college and a high proportion of our program is composed of 
them. If you just look at a talent pipeline over a couple of 
decades, you have to fill the entry level and you have to put 
them on our programs or you don't have the ability to touch 
stuff with senior people later. So I would argue keeping this 
stable and continuing to attract those young people is 
important for all of us.
    Mr. Clarke. And probably these programs too, I mean, it is 
a great incentive to encourage our college students to actually 
go into science and to get their advanced degrees to be able to 
do the work that is needed here to advance SLS and Orion. Thank 
you.
    Yes, Mr. Lacefield?
    Mr. Lacefield. Just as Mr. Chilton talked about Boeing, a 
third of our team, I would classify as under 30 and right out 
of school, and these kids are highly motivated and they have a 
technology level, especially when we talk about advanced 
computing, advanced avionics, that is really vital, I think, to 
not only NASA but also to the Department of Defense. So we see 
a lot of these technologies that these kids are involved with 
as playing forward to other vital programs in the United 
States.
    Mr. Clarke. Thank you, and I yield my time.
    Chairman Palazzo. I now recognize the gentleman from 
Alabama, Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    According to our Committee notes for this hearing, Orion is 
much further along in development than SLS because the 
Administration's decision to cancel Constellation was more 
disruptive to the launch vehicle development than to Orion's, 
and so I imagine that there is some plus then from the billions 
of taxpayer dollars that were sent on Constellation and that we 
at least have something to show for it, the progress that was 
made on the Orion capsule. On the other hand, though, we have 
much less to show for the billions of dollars that we spent on 
the Constellation launch platform. That having been said, Mr. 
Dumbacher, what assurances can you give America that this White 
House, this Administration won't unilaterally undermine or 
cancel the Space Launch System as it pretty much did with 
Constellation at a cost to taxpayers of again some billions of 
dollars?
    Mr. Dumbacher. Well, Congressman, I think the fiscal year 
budget request from the President demonstrates the stable 
funding and the intention to continue on and the desire to make 
SLS and Orion productive. I think that President's budget 
request is the plan that we have developed. It is what we are 
working to, and that--the support is there to go make that 
happen.
    I will also add that we are taking more advantage than just 
Orion from the Constellation program, particularly in our solid 
rocket boosters that we are using on the first two flights. The 
five segment boosters do have shuttle heritage but they are 
coming out of the Ares development, and that development made 
great strides and we are taking advantage of that as part of 
the Space Launch System to move that forward, and that is an 
element of our success with the development motor that we 
completed firing on that a year ago and next May we will be 
doing our first qualification motor firing.
    Mr. Brooks. Well, the assurances that you have given me 
sound a lot like the assurances that were given to the 
Constellation program prior to its cancellation. Is there 
anything else that you can add that would make us in Congress 
or the American people feel more comfortable that we will not 
continue along this path spending billions of taxpayers' 
dollars on the development of the Space Launch System only to 
have once again the White House pull the rug out from 
underneath us?
    Mr. Dumbacher. I think, Mr. Congressman, as I have 
mentioned, the President's budget request demonstrates that 
commitment to continue on. The team that we have across the 
country at the various NASA centers, our industry partners, as 
well as the leadership of the agency has demonstrated its 
commitment and we are continuing to move forward with all due 
haste in order to meet our 2017 flight date, and that is our 
target.
    Mr. Brooks. Thank you.
    Mr. Lacefield and Mr. Chilton, how have continuing 
resolutions as a funding mechanism for NASA impacted the 
private sector's ability to do what needs to be done to advance 
Orion and the Space Launch System? Has there been any adverse 
effect at all? Is it something that the private sector is 
comfortable with? As you know, we are about to face another 
continuing resolution for some number of months into this 
fiscal year. Can you help educate me on whether there is any 
impact on the private sector by continuing resolutions, and if 
so, please describe it?
    Mr. Lacefield. Mr. Congressman, I will try to give our 
viewpoint on that. Continuing resolutions are an impact but 
this is one where over the last several years NASA has been 
very good at telling us what to plan to or what to anticipate 
to plan to. So we have really done a lot of planning to make 
sure that we can meet those numbers, and we have worked options 
so that if we have contingencies that arrive that we can work 
around those. They are hard constraints when you are working a 
development program because at this point in the development 
program of course there is a lot of hardware in the loop that 
you are trying to make sure that you can purchase and develop 
and test, but that is part of the planning, you know, that we 
have gone through.
    I think what we have seen with the stress in the system has 
really allowed the team to go at this from a different point of 
view, from an affordability point of view. I know there has 
been a lot of discussion about the government programs versus 
the commercial programs. We have brought in a great deal----
    Mr. Brooks. Mr. Lacefield, if you don't mind, I am going to 
interject. My question was limited just to the impact of 
continuing resolutions.
    Mr. Lacefield. Okay.
    Mr. Brooks. Are you saying there is no harm or there is 
harm?
    Mr. Lacefield. It is very difficult but it is something 
that we plan around.
    Mr. Brooks. Mr. Chilton, please.
    Mr. Chilton. In general, we would always rather be 
executing our programs than replanning them. Any continuing 
resolution can push you into a replan situation. Mr. Dumbacher 
testified that NASA has protected us from that for the first 
six months of government fiscal 2013 by planning for 50 percent 
of 2012.
    Mr. Brooks. Thank you, gentlemen.
    Chairman Palazzo. I now recognized the Ranking Member of 
the full Committee, Ms. Johnson from Texas.
    Mr. Johnson. Thank you very much, Mr. Chairman, and I would 
like to ask unanimous consent to place my opening statement 
into the record and simply apologize for having two conflicting 
very important committee hearings.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Good morning, and welcome to our witnesses. I look forward to your 
testimony.
    Mr. Chairman, I will be brief in my remarks. Today's hearing is 
important for a number of reasons. In a season that seems to be 
consumed by partisan rhetoric and campaign slogans, I am glad that 
Members will instead have a chance this morning to focus on the serious 
work being done by a dedicated NASA and industry team to bring the 
future of our nation's human space exploration program into being.
    As you know, successive Congresses and Administrations have said 
that it is time to again move humanity beyond low Earth orbit and 
continue the voyages of exploration begun by Neil Armstrong and his 
fellow astronauts. And we will pay tribute tomorrow at the National 
Cathedral to Mr. Armstrong, a man who spoke eloquently about the 
importance of a national program of human exploration when he testified 
before our Committee.
    Yet, as I have said before, I think the most fitting tribute we can 
give to Mr. Armstrong's memory is not a eulogy, but instead a real 
commitment to the spirit of exploration that he embodied. And that's 
one oflhe reasons today's hearing is so important.
    It is easy for us to talk of returning to the Moon or going to an 
asteroid, or visiting Mars long after most of us will be gone from our 
positions in Congress and the White House. It is another thing for us 
to actually sustain the needed investments and provide the programmatic 
stability that will help turn those words into reality. Yet if we fail 
to do so, the consequences of our failure will be long lasting.
    Based on the testimony we will hear today, it is clear that NASA 
and its contractor team have made significant progress under very 
challenging conditions. They are turning designs and concepts into 
hardware and software and are moving forward towards flight tests in 
spite of funding that has been significantly less than authorized.
    However, they can't do it alone. We--Congress and the White House--
can set them up for failure if we disrupt their funding and 
programmatic plans in the name of short-term cost savings or if we 
allow the funding that Congress provides for these programs to be 
reallocated or otherwise restricted within NASA during the upcoming 
Continuing Resolution. We will need to guard against both dangers in 
the coming months.
    Finally, while I am pleased that the Space Launch System and the 
Orion crew capsule appear to be progressing well given the level of 
funding that has been available to them, we also need NASA to layout 
the plans for the use of these vehicles. SLS and Orion are simply the 
means to achieving the ends we are seeking in our human exploration 
program, and not ends in themselves. As NASA continues work on the 
development of these vehicles, it is not too soon for NASA to start 
clearly defining the steps it plans to take to achieve the broad 
exploration goals laid out by Congress in successive NASA Authorization 
Acts.
    That, however, is the topic for a future hearing. Today we will 
hear about the status of the SLS and Orion vehicles that will make 
those exploration missions possible. My thanks again to our witnesses 
for their participation in this morning's hearing, and I yield back the 
balance of my time.

    Ms. Johnson. My question is to Mr. Lacefield and Mr. 
Chilton. NASA has set a schedule of 2014 and 2017 for unmanned 
test flights with 2021 as the first manned test flights of the 
integrated Orion and SLS system. What of your funding levels 
will be required to achieve this schedule, and given the 
current funding constraints, what parts of the test plan are 
most at risk and what are the implications? What would be the 
implications of any funding reductions?
    Mr. Lacefield. I think from the Orion point of view, we 
have planned the program through the scope to accomplish the 
2014 mission and the 2017 mission at the marks that NASA has 
received so that we see those as high confidence level tests 
that we can get to. I think the thing that we worry about the 
most is trying to do the human spaceflight earlier than the 
2021 and that is where we have probably spent the most time 
looking at options to bring that forward, but at the current 
time we are not able to bring that forward with the funding 
marks that we have today.
    Mr. Chilton. From a test perspective, it is very important 
that we get our government facilities ready to run tests. That 
includes test stands at the Stennis Space Center. The core 
stage of the SLS, the first flight stage will actually go to 
Stennis and undergo what we call a proto flight test. We will 
put her on the stand, learn about the tanking, run 
instrumentation and firing sequences that get us ready to fly. 
If we have budget disruptions that make it so those government 
facilities aren't ready, going back to Congressman Brooks' 
question, if under a CR, if our colleagues at the agency can't 
have those ready, that will certainly be a schedule challenge, 
so that funding is important.
    And I would also agree with Mr. Lacefield. We think our 
production systems and our supply chains and our people will be 
ready to produce the Space Launch System and Orion more than 
one in 2017 and more in 2021 and we will just let funding 
dictate whether we get to do that or not.
    Ms. Johnson. Thank you.
    Mr. Dumbacher, do you care to comment?
    Mr. Dumbacher. I think our available funding is--the 2014, 
2017 and 2021 dates are all within our available funding and 
the plan that we have, we are working to mitigate the risks 
associated with that but we believe we can execute the plan to 
those dates. The testing is very important. Twenty fourteen, 
the exploration flight test is critical for our Orion flight 
test, particularly because it addresses 12 of our 16 top risks 
for that spacecraft, as well as an opportunity to test out our 
recovery systems for recovering the crew module from the ocean 
once we land, and it is also critical from an SLS perspective 
in that we get the payload to launch vehicle adapter designed, 
developed and built and we will use that same adapter for the 
2017 and 2021 flights. So our integrated test plan is very 
important. We have laid it out very carefully to make sure we 
address our high-risk items and to work that within the budget 
and we believe we have the answer and the plan that we need to 
execute.
    Ms. Johnson. Thank you. My time is about to expire.
    Chairman Palazzo. I now recognize Mr. Rohrabacher from 
California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I am trying to figure out exactly how much money we are 
talking about here, and we keep getting answers dealing with 
the percentage of this and the percentage of that. What exactly 
is the budget amount that you are seeking to have appropriated 
for fiscal year 2013 for Orion/SLS?
    Mr. Dumbacher. The President's budget request as I recall, 
and we can take it for the record to go back and get the exact 
numbers, but we are in the ballpark of about $1 billion 
annually for Orion and $1.3 billion for SLS per the President's 
budget request. Now, we can go back and get the exact numbers 
but that is working off the top of my head, Congressman.
    Mr. Rohrabacher. All right. To be fair about it, I would 
think that someone would know exactly how much money they are 
requesting when they come to a hearing to talk about those 
projects. So roughly $2-1/2 billion is what we are talking 
about for Orion/SLS. And did we just hear that there is going 
to be no test with people on Orion until 2021?
    Mr. Dumbacher. Our first crewed flight is 2021, and that 
plan is based on the available funding level that we have 
today.
    Mr. Rohrabacher. And that $2.3 billion that we are doing 
today, do you expect that level of spending to continue or to 
go up according to your plan?
    Mr. Dumbacher. Our plan is laid out with--the President's 
budget request is laid out with constant year funding across 
the budget horizon, and that is what our plan has been built 
upon, and one item I would like to identify is that in addition 
to the SLS and Orion funding is also the funding that is 
necessary for the ground systems program at KSC in order to 
have the launch infrastructure ready to support both Orion and 
SLS.
    Mr. Rohrabacher. Is that included in the $2.3 billion 
figure you just----
    Mr. Dumbacher. Now, that is an additional $400 million 
plus.
    Mr. Rohrabacher. So now we are talking more like----
    Mr. Dumbacher. We are talking----
    Mr. Rohrabacher. --$2.7 billion, about?
    Mr. Dumbacher. In that--yes, and we will take it for the 
record to go back and get the precise numbers.
    Mr. Rohrabacher. That is a lot of money. We would hope 
that--you know, when we are dealing with these big projects, we 
are dealing with big money, and if something goes wrong, we end 
up losing big money, and we have seen a lot of examples of that 
in the past.
    I am wondering if there is other ways to go about this. Let 
me ask, is it Mr. Lacefield? Did I pronounce the name? Now, the 
SLS is not scheduled to be ready but Orion will be ready 
before. Is that correct?
    Mr. Lacefield. What we have done is, we have a test flight 
or a flight test of Orion early to----
    Mr. Rohrabacher. Right.
    Mr. Lacefield. --prove that we can----
    Mr. Rohrabacher. And that is going to go up on a Delta IV?
    Mr. Lacefield. Yes, sir.
    Mr. Rohrabacher. Yeah. What is the cost of a Delta IV 
flight?
    Mr. Lacefield. It is in the ballpark of $300 million.
    Mr. Rohrabacher. Okay. And a test flight--and when we get 
the SLS done, what will be the cost of that flight, a flight on 
the SLS, beside all of the expenses of developing this $35 
billion development cost? Who can answer that?
    Mr. Dumbacher. Well, I will take that one, Mr. Congressman. 
We are still working that number up. It will be a higher number 
than the Delta IV heavy cost that Mr. Lacefield mentioned.
    Mr. Rohrabacher. It is going to be higher and we have all 
the development costs. What can we do? Are there other missions 
that we can do with the Orion on top of a Delta IV? Mr. 
Lacefield?
    Mr. Lacefield. When we look at the exploration missions and 
we start looking at the nearest mission that we are talking 
about doing is in the Cis-Lunar or the lunar environment. It 
takes the SLS for us to do that mission. So EM-1 and EM-2, 
which will fly to 300,000 miles out there, it takes an SLS to 
boost us there.
    Mr. Rohrabacher. So Delta IV's would not permit the Orion 
capsule from doing these lunar missions. Are there other 
missions that Orion might be able to do on Delta IV's?
    Mr. Chilton. May I address that? We seem to be talking 
about a big rocket versus a small rocket. Meaningful beyond-
Earth-orbit exploration requires a heavy-lift rocket. It has 
been studied by the agency, many others, most recently and 
famously by the Augustine Commission. Both Augustine panels 
said a heavy-lift rocket is required to do beyond-Earth-orbit 
exploration. He confirmed that again, in fact, in an interview 
with Space News in April.
    Mr. Rohrabacher. Right, for manned flight. You can do a lot 
of things with the Delta IV but unmanned.
    Mr. Chilton. So the driver is the size for human-rated 
elements and the velocity to escape Earth's gravity.
    Mr. Rohrabacher. Well, we are going to be watching, and we 
wish you luck. We want you to succeed, and we have just been 
through a number of these in the past where we end up having 
budget problems on this end and then we end up losing billions 
of dollars. So, I hope that you are successful, and we are on 
your side. Thank you very much.
    Chairman Palazzo. We are going to be going into a second 
round of questioning, and I will lead it off for five minutes.
    Dr. Mountain, what is more important to the people 
designing trajectories for science missions, an emphasis on the 
amount of mass that can be carried to low-Earth orbit or an 
emphasis on the amount of mass that can be delivered to escape 
velocity for beyond-Earth orbit? Is the SLS being designed to 
optimize beyond-Earth-orbit missions?
    Dr. Mountain. It depends entirely on the science you want 
to do. There are several methods. If you are trying to get to 
interplanetary science, you care about going out of the Earth's 
gravity well and getting into interplanetary space, and that is 
where you need the acceleration and the energy to take these 
missions out. When you are looking at building very large 
telescopes, the kind of telescopes that can perhaps detect 
life, what you care about there is volume and mass to get 
something out of the Earth's atmosphere and into orbit where 
you could either assemble it or have a big enough telescope 
that you could then send out to a Lagrange point too. And so it 
really depends on the science. Where we are right now are 
limited in both those areas by our current launch technologies. 
We don't really have the energy or the acceleration to go 
directly to places like Europa and we don't have the volume or 
the lift capacity to launch bigger telescopes than the James 
Webb Space Telescope.
    Chairman Palazzo. Your statement noted that even if the SLS 
was primarily a vehicle for human exploration, as long as it 
was available for the science missions and wasn't excessively 
costly for the science mission providing the payload that it 
could serve to unify and integrate NASA to be greater than the 
sum of its parts. The synergy between the shuttle and the 
Hubble Space Telescope are a good example. With the retirement 
of the shuttle, in your view, has NASA lost some of the synergy 
between human spaceflight and the science community?
    Dr. Mountain. Certainly, when you come to look at missions 
like the Hubble Space Telescope, there is no way back to the 
Hubble, for example, or no way back to contemplate missions 
like a future Hubble or a future large telescope. We have gone 
down another path where we are going to send out specialized 
missions that can't be serviced or upgraded or repaired, and 
one has to examine the model, whether that is a smart model for 
future, even more ambitious missions. I think the power of 
being able to actually reconnect the human spaceflight program 
and science is demonstrated by the tremendous success of the 
Hubble or our ability to test things initially on Space Station 
that would then allow us to try new technologies into deeper 
space. I think there is a huge opportunity to actually connect 
some of the technologies in the human spaceflight with the 
ambitions of the science program, and development of new 
technologies always goes hand and hand with exploration and 
science.
    Chairman Palazzo. Thank you.
    Mr. Lacefield, what is the significance of the friction 
stir welding technique that you referenced in your statement 
with respect to the manufacturing of the Orion crew module, and 
what role was played by the team at Michoud Assembly Facility 
in the application of that technique?
    Mr. Lacefield. Well, the welding teams that both Boeing and 
Lockheed Martin have are located at the Michoud facility. It is 
state-of-the-art. It allows us to not have joints on the 
vehicle. It is a huge mass savings for Orion and I think it is 
a huge mass savings for Boeing also on SLS. It is something 
that does play forward into other programs, into other 
industries, and it is a significant accomplishment, I think, 
for the program.
    We were able to build the first article without any 
problems that we had to go back and grind out in the welds--
they just came out pristine. So it is one of the best welding 
processes that we have seen for spacecraft.
    Mr. Chilton. I would add, it is significant from a safety 
perspective. You have very few defects with a friction stir 
weld because there is no heat, and that makes it economically 
more efficient, you get more schedule certain, but also the 
type of flaw you could get is going to be an order of magnitude 
bigger than the standard industrial detection capability so we 
are not going to have much chance of ever having a problem we 
don't find, so I believe it is a safer method as well.
    Chairman Palazzo. Mr. Dumbacher, in response to a previous 
question, you said that NASA was planning to the President's 
request. Could you elaborate? Was your response in the context 
of SLS and Orion or is NASA using the budget request as 
guidance for all programs, projects and activities?
    Mr. Dumbacher. Well, I can only speak to the exploration 
systems development area, which is SLS, Orion and the ground 
systems, and we are planning to the President's budget request 
as it has been submitted. I would like to emphasize that one of 
the advantages we have going for us is that the development 
risk associated with the configurations we have chosen, we 
purposely chose the configuration as well as set the dates for 
the flights were set up consistent with that President's budget 
request, and that is what you have before you.
    Chairman Palazzo. And does that include commercial crew 
planning?
    Mr. Dumbacher. No, the commercial crew is outside of my 
jurisdiction. That is a separate office within the Human 
Exploration and Operations Mission Directorate, and that is 
outside of the SLS and Orion budgets.
    Chairman Palazzo. I now recognize Mr. Clarke.
    Mr. Clarke. Thank you, Mr. Chair.
    I have several questions of different aspects of these 
projects, but just to go back to the progress that all of you 
have indicated that we have made on the architecture of both 
Orion and SLS in the last year, in spite of that progress, what 
are the key challenges in maintaining that progress and what is 
needed to address those challenges? Any of you, in your 
opinion?
    Mr. Dumbacher. I think the major challenges, we have talked 
about one earlier, which is the budget stability and being able 
to plan the program out from an integrated fashion in order to 
arrive at the 2017 and 2021 flight dates. As is usual with this 
kind of work, we have technical challenges ahead of us but they 
have been minimized by the choices we have made in terms of the 
configuration for the launch vehicle and we are also starting 
to see--and Mr. Lacefield and Mr. Chilton can elaborate--we are 
also starting to see the typical first unit kind of problems 
that you have as you work through hardware with the suppliers 
and making sure that they are able to supply the right hardware 
on the right dates in order to support the flight dates. Now, 
we have planned margin into the schedules and other things in 
order to be able to adjust for much of that but that is the 
typical program planning, program execution challenges that we 
see from an integrated level. I will leave the rest, the 
further details to Mr. Lacefield and Mr. Chilton.
    Mr. Lacefield. I totally agree with what Mr. Dumbacher 
said. I think that the one thing I would like to bring up is 
that I think our supply chain in the United States is very 
fragile. When we look at the triple-E parts needed, you know, 
for avionics, all the electronic components for electronics, in 
the environments that we see, which is a radiation environment 
in deep space, those components are very hard to find in the 
United States right now, and just our program with Honeywell, 
Lockheed Martin and Hamilton Sundstrand buying those 
components, we are seeing lead times that we have never seen 
before. So I would say that the supply chain is the area that 
we really have to focus on. We really have to focus on the long 
lead times of these components, and the robustness of that 
supply chain isn't what it was, you know, ten years ago.
    Mr. Clarke. Just to follow up on that, Mr. Lacefield, 
because that is very disturbing, so number one, you have got 
long lead times because the components are hard to find, and 
then secondly, you see a fragility overall in our supply chain. 
Can you address that?
    Mr. Lacefield. So we have outsourced our composites because 
we have a great deal of lightweight composites on the vehicle. 
Approximately, I think, 40 percent of the vehicle is 
composites. We have outsourced those composites across the 
country so that we would be able to meet the schedules of the 
2014 flight. We have outsourced across all of the electrical 
components to get the parts that we need by the time we need to 
do the vehicle checkout on the pad next March, the electrical 
checkout, and we are waiting on those parts to enable us to do 
the vehicle checkout on the pad in Florida. That is what we are 
waiting on. We have outsourced all of the mechanical components 
across the country also. With our program, we are using up a 
great deal of the capacity that is required in spacecraft so 
that the lead times that we are seeing, you know, we are in 
line with other DOD programs and it is just something we 
haven't seen here recently, and I think it is something that we 
should all be aware of, what is happening with the supply chain 
in the United States on American suppliers.
    Mr. Clarke. I know this is likely off topic from the focus 
of our hearing, but if you have any thoughts on what we could 
do to actually shorten those lead times and strengthen our 
supply chain, because it is very disturbing. It has enormous 
impact on other industries as well. If anyone has any other 
comment on that, on the supply chain, what we can do to 
strengthen it and shorten the lead times on those components?
    Mr. Lacefield. Well, I think when we talked about the 
funding stability and the stability in high-tech programs as 
they exist today supporting DOD and NASA, I think we need to 
see some stability there for those suppliers to make it, and 
because they aren't seeing that stability, they are all 
retrenching, you know, with their capability and capacities.
    Mr. Clarke. I got you. That is important.
    I yield back my time. Thank you.
    Chairman Palazzo. I now recognize Ms. Johnson.
    Ms. Johnson. Thank you very much.
    Just sitting here listening with a thousand thoughts going 
through my mind, I am fully aware that we are facing lots of 
constraints and I fully acknowledge that we have some real 
concerns about how we are going to able to fund. I hope we can 
stay online. But I am also aware that until we out-innovate, 
and we only can innovate through research, our economy is 
really not going to get much better, and so I am hoping that 
you will keep the pressure on us--sometimes we get a little 
lightheaded here--to stay on track because when you just 
reflect, we are aware that where we are today basically came 
from this type of research and where we are going to be 
tomorrow, it will come from this research. It will either be 
done here in partnership or it will be done somewhere else. If 
it is not done by the United States or not a major part, we 
will be watching it as spectators.
    And so I would just simply say to keep the pressure up, 
keep young people intrigued so that we can continue to educate 
the manpower we need. We simply cannot afford to do without 
this research. Thank you.
    Chairman Palazzo. Thank you.
    I thank the witnesses for their valuable testimony and the 
Members for their questions. The Members of the Subcommittee 
may have additional questions for the witnesses, and we will 
ask you to respond to those in writing. The record will remain 
open for two weeks for additional comments and statements from 
the Members.
    The witnesses are excused and this hearing is adjourned.
    [Whereupon, at 11:24 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by Mr. Dan Dumbacher

[GRAPHIC] [TIFF OMITTED] T6236.033

[GRAPHIC] [TIFF OMITTED] T6236.034

[GRAPHIC] [TIFF OMITTED] T6236.035

[GRAPHIC] [TIFF OMITTED] T6236.036

[GRAPHIC] [TIFF OMITTED] T6236.037

[GRAPHIC] [TIFF OMITTED] T6236.038

Responses by Mr. Cleon Lacefield

[GRAPHIC] [TIFF OMITTED] T6236.039

[GRAPHIC] [TIFF OMITTED] T6236.040

[GRAPHIC] [TIFF OMITTED] T6236.041

[GRAPHIC] [TIFF OMITTED] T6236.042

Responses by Mr. Jim Chilton

[GRAPHIC] [TIFF OMITTED] T6236.043

[GRAPHIC] [TIFF OMITTED] T6236.044

[GRAPHIC] [TIFF OMITTED] T6236.045

[GRAPHIC] [TIFF OMITTED] T6236.046

[GRAPHIC] [TIFF OMITTED] T6236.047

[GRAPHIC] [TIFF OMITTED] T6236.048

Responses by Dr. Matt Mountain

[GRAPHIC] [TIFF OMITTED] T6236.049

[GRAPHIC] [TIFF OMITTED] T6236.050

[GRAPHIC] [TIFF OMITTED] T6236.051

[GRAPHIC] [TIFF OMITTED] T6236.052

[GRAPHIC] [TIFF OMITTED] T6236.053

[GRAPHIC] [TIFF OMITTED] T6236.054

[GRAPHIC] [TIFF OMITTED] T6236.055

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
